       Association of Independents in Radio and an independent producer to
       produce programming on “global warming.” Under this agreement KVNF
       was required to make in-kind contributions of $23,568 to support this
       project, KVNF received no CPB funds for this project. The three party
       agreement did not address how KVNF needed to account for its in-kind
       contributions.

   •   Under the Public Broadcasting Act we do not have authority to review
       local programming decisions, so we did not address the complaint
       regarding the news coverage of the political campaign.
This report presents the conclusions of the OIG, and the findings reported do not
necessarily represent CPB’s final position on these issues. Accordingly, the
report contains recommendations the OIG believes would be appropriate to
resolve these findings. Final determinations on the reported findings will be
made by CPB officials in accordance with established CPB audit resolution
procedures.
Based on KVNF’s response to the draft report (Exhibit D), we consider
recommendation 1 resolved but open pending CPB’s acceptance of KVNF’s
corrective actions. Recommendation 2 remains unresolved because it was
directed to CPB and requires a management decision.

                           Results of Evaluation
Payment of Station Manager

Our evaluation of KVNF records did not enable us to independently substantiate
the allegation that the Station Manager received her taxpayer funded pay check
(CPB funds) while on a leave of absence because KVNF did not maintain
discrete accounting records of CPB expenditures. CPB’s Radio Community
Service Grant General Provisions and Eligibility Criteria require recipients to
discretely account for its CSG funds. While accounting records were not
maintained to enable us to match expenditures to revenue sources, KVNF
officials asserted that CPB funds were expended on programming costs, as
presented in Exhibit A. We traced these expenditures into the general ledger
and verified they did not include the salary of the Station Manager.

CPB’s General Provisions and Eligibility Criteria for TV and Radio CSGs, Section
10.B. Record Keeping and Audit Requirements, require stations to provide
discrete accounting and proper documentation to support all CSG revenues and
expenditures. Further, CPB’s website, for Stations and Producers, Station
Guidelines further explains that, “discrete accounting requires a unique code that
identifies CSG revenues and expenses, restricted and unrestricted, so that both
the grantor and the auditor can discretely track those funds within the accounting
system. There is no requirement to segregate CSG funds in separate bank
                                        2

              
accounts. Co-mingling funds is allowable as long as the accounting system can
easily identify transactions associated with a major activity (i.e., department,
grant, contract or other project).

While KVNF identified programming costs as CPB expenditures, per Exhibit A,
we could not independently verify the source of the funds used to pay these
expenditures based on how the accounting records were maintained. The
revenues used to pay all expenditures were commingled in its accounting
records. We were able to verify that the CPB expenses KVNF presented to us in
response to this inquiry did not include any of the $5,760 in part-time wages paid
to the Station Manager during her leave of absence from May 21, 2010 –
November 5, 2010. Our comparison of the CPB revenues and expenditures
presented to us by KVNF to the general ledger accounts is presented in Exhibit
B.

As we have done in other audits, in such instances we have accepted
management’s assertions on how they spent its CPB funds and have not
questioned any of those expenditures. In those instances, we have cited the
grantee for non-compliance with CPB CSG recordkeeping requirements and
recommended the grantee set-up accounts in its accounting system to discretely
account for CPB funds in the future.

Reporting on Global Warming

We determined that the alleged $200,000 check from CPB to spend on reporting
on “global warming” was not a grant given directly to KVNF by CPB. Rather, the
complaint refers to a larger grant CPB awarded to the Association of
Independents in Radio (AIR), titled “Maker’s Quest 2.0 Local Partnership for Digital
                                          1
Storytelling,” in the amount of $1,250,000 to serve as Executive Producer on a
project to pair ten multimedia producers with public radio and television stations
to produce community-generated stories for distribution on multiple platforms.

Under the CPB agreement, AIR recruited an independent producer to work with
KVNF on a project titled iSeeChange, which is a crowd-sourced reporting project
that will draw from participants’ everyday observations about shifts in the
weather. AIR, KVNF, and the independent producer entered into a three party
Localore Collaboration Agreement in March 2012 to produce this programming.
The total project cost was budgeted at $126,319, with $102,751 being funded by
AIR. The amount of CPB funds included in the $102,751 was not specified in the
agreement, the agreement only identified the $102,751 as AIR revenues. Under
the agreement KVNF is required to provide in-kind support totaling $23,568 to
                                                                           

1
  The total project budget was $1,904,103 with CPB funding of $1,250,000 and AIR guaranteeing
the balance of $654,103.
                                                                        3

                
exercise its editorial oversight over the project’s content and integrate the project
into the administration and operation of the station. Additionally, under the
agreement KVNF was required to pay AIR a $2,000 administrative fee. KVNF
will receive no reimbursement under this agreement from either AIR or CPB.

While KVNF did not receive any CPB funding under its agreement with AIR, the
joint Localore Collaboration Agreement did not specify how KVNF needed to
account for its indirect costs (e.g., accounting services, legal services, office
space, studio rental, etc.) to be claimed as in-kind support under its agreement.
The agreement provided a form to report KVNF’s in-kind support to AIR. AIR has
to include all project costs, which would include in-kind support, in its financial
reporting to CPB.

Finally, we noted that CPB’s overall project grant agreement with AIR did not
include in-kind support in its approved budget of $1,904,103. The budget only
specified CPB revenues of $1,250,000 and a Grantee Guarantee of $654,103.
Generally we find that when in-kind support is agreed to in negotiating the overall
production agreement costs, in-kind revenues and expenses are specified in the
approved budget document.

Supervision of News Broadcasts
Our evaluation did not include a review of the station’s news coverage of the
2010 election. Under the Public Broadcasting Act, CPB is prohibited from
producing programming and making editorial decisions over programming
content. This is a local decision made by station officials. We do not have
authority to review local programming decisions.
However, we learned from the station’s response to inquiries made by the CPB
Ombudsman that during the Station Manager’s leave of absence (May –
December of 2010) the Station Manager’s duties were assigned to the Program
Director. The Program Director said he was responsible for supervising the news
department.

       Recommendations
We recommend that CPB:
1) Require KVNF to set-up appropriate accounts in its accounting system to
   discretely account for future CPB CSG revenues and expenditures, as
   required by CPB’s Radio Community Service Grant General Provisions and
   Eligibility Criteria and provide CPB with evidence of its corrective actions.
2) Amend the CPB agreement with AIR to:
   a) identify in-kind support included in the Grantee Guarantee of $654,103;
   b) require AIR to amend subrecipient agreements to:

                                          4

               
      i) identify the amount of CPB funds included in the budgets given to
         independent producers;
      ii) specify financial recordkeeping requirements to:
          (1) discretely account for CPB revenues and expenditures, and
          (2) document indirect costs and in-kind support; and
      iii) require separate reporting of CPB expenditures, non-CPB
           expenditures, and in-kind support incurred under the project.

      Management Response
In response to the lack of discrete accounting records for CPB expenditures,
KVNF officials stated that they have remedied that problem by adding sub
categories in its “Quickbooks” chart of accounts that specify CPB restricted and
unrestricted funds. Further, from this time forward they will be using those sub
categories to track every CPB expense. They also provided a “pdf” of the new
account structure to separately account for CPB revenues and expenditures.
Regarding the CPB agreement terms with AIR, and accounting for in-kind
contributions, KVNF officials said they will comply with whatever procedures are
put in place to document their in-kind services for that project.

      OIG Review and Comment
Based on KVNF’s response we consider recommendation 1 resolved but open
pending acceptance of KVNF’s corrective actions. Recommendation 2 remains
unresolved because it was directed towards CPB and requires a management
decision.




                                        5

              
                                                                 Exhibit A

KVNF Use of CPB Funds for Programming in FYs 2010-11

           CPB Income and Expenses             FY 2010     FY 2011

 CPB Income:                                   $133,552     $124,729

              Total CPB Revenue                $133,552     $124,729

 Direct Production Expenses using CPB Funds:
  Production Employee A                         $34,696      $32,885
  Production Employee B                         $31,500      $32,639
  Production Employee C                         $31,750       $5,290
  Production Employee D                         $10,525      $25,835
  Production Employee E                              $0       $4,174

 Program Acquisition Fees:                      $22,541      $33,767
 Satellite Interconnection Fee:                  $7,100       $7,494

              Total CPB Expenses               $138,112     $142,084


Source: KVNF prepared schedule of CPB CSG revenues and expenditures.




                                   6

        
                                                                                                                   Exhibit B

           Comparison of CPB Income and Expenses to General Ledger

                                                                          FY 2010                              FY 2011
        Expense Categories                         Schedule                  G/L       Difference   Schedule     G/L      Difference


CPB Income:
 CSG Unrestricted                                     $64,605                                        $66,266
 CSG Restricted                                       $23,066                                        $23,526
 Fiscal Stabilization                                 $11,756                                             $0
 RLAIF                                                $34,125                                        $34,937
         Total CPB Income                           $133,552            $133,552               $0   $124,729   $124,729           $0


Direct Production Expenses:
 Production Employees Salaries                      $108,471            $109,671         ($1,200)   $100,823   $108,754     ($7,931)


Program Acquisition Fees:                             $22,541                                        $33,767
 Local Programming                                                             $900                              $3,776
 National Public Radio                                                    $17,920                              $26,6172
 Pacifica Foundation                                                        $1,200                               $1,200
 Program Acquisition – Other                                                $2,521                               $2,174
       Program Fees Sub-total                         $22,541             $22,541              $0    $33,767    $33,767           $0


Satellite Interconnect Fee:                             $7,100              $7,100             $0     $7,494     $7,494           $0


        Total CPB Expenses                          $138,112            $138,130         ($1,200)   $142,084   $150,014     ($7,931)



       Auditor Note: Scheduled CPB expenses exceed CPB grant award amounts for CSG, Fiscal
       Stabilization, and RLAIF funds. Expenses reported under the National Public Radio, Pacifica
       Foundation, Program Acquisition – Other, and Satellite Interconnect Fee line items would
       qualify as national programming. Expenses recorded in these accounts exceed the CSG
       restricted funds award amount.




                                                                                    

   2
       Includes prepaid NPR expenses of $16,906 paid in September 2011 for FY 2012 NPR dues.

                                                                                 7

                         
                                                                     Exhibit C

                   Objectives, Scope and Methodology

The objectives of the evaluation were to determine whether KVNF:
   •   paid the station manager’s salary from CPB funds during the period of her
       leave of absence from May 2010 through October 2010; and
   •   properly accounted for the receipt and expenditure of CPB grant funds.

We reviewed selected information from CPB’s Integrated Station Information
System (ISIS) on Community Service Grant (CSG) recipients, including the CPB
Annual Financial Report for KVNF for Fiscal Years 2010 and 2011. We also
reviewed CPB payments made to KVNF from October 1, 2009 – March 28, 2012.
Additionally, we reviewed the CPB grant agreement with AIR, dated August 11,
2011 to produce community-generated stories for distribution on multiple
platforms.

We reviewed KVNF records, including:
   •   the audited financial statements for the periods ending September 30,
       2010 and 2011;
   •   trial balances for periods ending September 30, 2010 and 2011;
   •   schedules of income and expenses for the periods ending September 30,
       2010 and 2011;
   •   Quickbooks Transaction Detail by Account expense category reports for
       the periods ending September 30, 2010 and 2011:
          o Payroll Salaries;
          o Payroll taxes;
          o Workers Compensation Insurance;
          o Production Mileage;
          o Mileage – Other;
          o U/W Sales (mileage);
          o Local Programming (mileage);
          o Local Programming;
          o National Public Radio;
          o Pacifica Foundation;
          o Program Acquisition – Other; and
          o Satellite Interconnect Fee.
   •   KVNF prepared schedules of CPB CSG expenses for FYs 2010 and 2011,
       as well as, a schedule of the station manager’s part-time hours worked
       during her leave of absence; and


                                       8

              
   •   the Localore Collaboration Agreement between AIR, KVNF, and the
       independent producer dated March 1, 2012.

We traced the KVNF prepared schedule of CPB CSG expenditures to the
expense account Transaction Detail by Account reports by fiscal year. We
compared national programming expense accounts (NPR, Pacifica, and Program
Acquisition – Other) to restricted CSG funds awarded to KVNF by fiscal year to
ensure expense totals met or exceeded restricted funds provided. We also
reviewed the statement KVNF officials’ gave to the CPB’s Ombudsman regarding
this complaint. The CPB Ombudsman conducted his own independent
evaluation of the complaint.
Our evaluation did not include steps to verify expenditures to detailed payroll
records, personnel files, vendor invoices, allocations, or journal entries. We did
not audit the Annual Financial Report, the reporting of Non-Federal Financial
Support, or Communications Act compliance with open meeting, open financial
reports, Community Advisory Board, EEO, or donor requirements. Finally, we
did not address the complaint related to election news coverage because we do
not have the authority to review local editorial decisions on programming.
This evaluation was conducted in accordance with the Council of the Inspectors
General on Integrity and Efficiency Quality Standards for Inspections and
Evaluations (dated January 2012).  




                                         9

              
